No. 19-247

In the

Supreme Court of the United States
CITY OF BOISE,
Petitioner,
V.
ROBERT MARTIN, LAWRENCE LEE SMITH, ROBERT
ANDERSON, JANET F. BELL, PAMELA S. HAWKES, AND
BASIL E. HUMPHREY,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRIEF IN OPPOSITION
HOWARD A. BELODOFF
IDAHO LEGAL AID SERVICES,
INC.
1447 So. Tyrell Lane
Boise, ID 83706
MARIA FOSCARINIS
ERIC S. TARS
TRISTIA BAUMAN
BRANDY RYAN
NATIONAL LAW CENTER
ON HOMELESSNESS &
POVERTY
2000 M Street, NW
Suite 210
Washington, DC 20036

MICHAEL E. BERN
Counsel of Record
SAMIR DEGER-SEN
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
michael.bern@lw.com

Counsel for Respondents

QUESTION PRESENTED
Whether a homeless individual may be charged
with a crime for sleeping outside when there is no
shelter available to him or her.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
TABLE OF AUTHORITIES ...................................... iii
INTRODUCTION .......................................................1
STATEMENT OF THE CASE ....................................4
A. Factual Background ......................................4
B. Procedural History.........................................7
REASONS FOR DENYING THE PETITION..........13
I.

PETITIONER
FUNDAMENTALLY
MISCHARACTERIZES THE DECISION
BELOW ...............................................................13

II. THERE IS NO CONFLICT WARRANTING
THIS COURT’S REVIEW ..................................15
A. The Decision Below Does Not Conflict
With This Court’s Precedent .......................16
B. The Asserted Circuit Conflict and
Conflict With The California Supreme
Court Are Illusory ........................................19
III. THE
PETITION
DRAMATICALLY
EXAGGERATES THE SCOPE AND
CONSEQUENCES OF THE DECISION
BELOW ...............................................................25
IV. THIS CASE IS AN EXCEPTIONALLY
POOR CANDIDATE FOR THIS COURT’S
REVIEW .............................................................31
CONCLUSION ..........................................................34

iii
TABLE OF AUTHORITIES
Page(s)
CASES
Allen v. City of Sacramento,
183 Cal. Rptr. 3d 654 (Ct. App. 2015) .................20
Bell v. City of Boise,
709 F.3d 890 (9th Cir. 2013)..................................8
Bell v. City of Boise,
834 F. Supp. 2d 1103 (D. Idaho 2011) ...................8
City of Canton v. Harris,
489 U.S. 378 (1989) ..............................................29
Heck v. Humphrey,
512 U.S. 477 (1994) ................................................8
Inouye v. Kemna,
504 F.3d 705 (9th Cir. 2007)................................10
Joel v. City of Orlando,
232 F.3d 1353 (11th Cir. 2000), cert.
denied, 532 U.S. 978 (2001) .................................21
Johnson v. City of Dallas,
860 F. Supp. 344 (N.D. Tex. 1994), rev’d
and vacated on other grounds, 61 F.3d
442 (5th Cir. 1995) ...............................................21
Malley v. Briggs,
475 U.S. 335 (1986) ..............................................29
Manning v. Caldwell,
930 F.3d 264 (4th Cir. 2019)..........................23, 24

iv
TABLE OF AUTHORITIES—Continued
Page(s)
Moses H. Cone Memorial Hospital v.
Mercury Construction Corp.,
460 U.S. 1 (1983) ..................................................18
Pottinger v. City of Miami,
810 F. Supp. 1551 (S.D. Fla. 1992) ...............21, 24
Pottinger v. City of Miami,
359 F. Supp. 3d 1177 (S.D. Fla. 2019) ................27
Powell v. Texas,
392 U.S. 514 (1968) .............................. 2, 11, 16, 17
Robinson v. California,
370 U.S. 660 (1962) ..........................................2, 16
Tobe v. City of Santa Ana,
892 P.2d 1145 (Cal. 1995) ....................................19
United States v. Jacobsen,
466 U.S. 109 (1984) ..............................................18
United States v. Johnston,
268 U.S. 220 (1925) ..............................................32
Walter v. United States,
447 U.S. 649 (1980) ..............................................18
Will v. Calvert Fire Insurance Co.,
437 U.S. 655 (1978) ..............................................18
Yee v. City of Escondido,
503 U.S. 519 (1992) ..............................................30

v
TABLE OF AUTHORITIES—Continued
Page(s)
FEDERAL STATUTES
28 U.S.C. § 2201 ..........................................................8
28 U.S.C. § 2202 ..........................................................8
42 U.S.C. § 1983 ..........................................................8
STATE STATUTES
Boise City Code § 5-2-3(A) (formerly Boise
City Code § 6-01-05 (2009)) ...................................6
Boise City Code § 5-2-3(B)(1) (formerly
Boise City Code § 6-01-05(D) (2014)) ........ 6, 26, 31
Boise City Code § 7-3A-2(A) (formerly Boise
City Code § 9-10-02 (2009)) ...................................6
Boise City Code § 7-3A-2(B) (formerly Boise
City Code § 9-10-02 (2014)) ....................... 6, 26, 31
Boise City Code § 9-10-02 (2009) ................................6
OTHER AUTHORITIES
Letter from Lisa Foster (Director, Office
for Access to Justice, U.S. Dep’t of
Justice) to Seattle City Council
Members (Oct. 13, 2016),
https://assets.documentcloud.org/
documents/3141894/DOJ-ATJLetterto-Seattle-City-Council-10-132016.pdf ................................................................27

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Sup. Ct. R. 10 ............................................................20

INTRODUCTION
In seeking rehearing en banc in the Ninth Circuit,
petitioner recognized the panel’s decision as “narrow,”
noting “that it would only preclude municipal
governments from prosecuting homeless individuals
criminally for the act of sleeping outdoors on public
property when that person has no option of sleeping
indoors.” Appellee’s CA9 Supp. En Banc Br. 1, ECF
No. 72. That prohibition, petitioner asserted, “raises
little actual conflict with Boise’s Ordinances or its
enforcement of the same” because “the City has never
sought to prosecute homeless individuals for sleeping
overnight in public when they truly cannot obtain
shelter indoors.” Id. at 2-3. “To the contrary,”
petitioner stressed, the “City’s [own] Ordinances
clearly and unequivocally set forth the City’s longstanding policy” forbidding enforcement in those
circumstances. Id. at 3. Indeed, petitioner claimed,
“no homeless individual has ever been cited” by the
City in the situation covered by the Ninth Circuit’s
opinion. Id.
Before this Court, however, petitioner conjures up
a radically different story. In petitioner’s new telling,
the Ninth Circuit’s holding will have “far-reaching
and catastrophic” consequences, “cripple the ability of
[municipalities] to maintain the health and safety of
their communities” and make it impossible for
petitioner to address “[p]ublic encampments” or apply
“a whole host of other laws regulating public health
and safety.” Pet. 3-4. Petitioner now claims the Ninth
Circuit’s decision “categorically” “exempts from
generally applicable criminal laws any conduct that is
purportedly involuntary” and creates a “de facto
constitutional right to live on sidewalks and in parks.”
Id. at 12-13, 3. Moreover, petitioner insists, the

2
decision threatens to broadly void laws criminalizing
“purportedly involuntary” acts, including drug use
and downloading child pornography. Id. at 21-23.
It is, of course, common practice for petitions for
certiorari to dramatize the impact of the decisions
they seek to challenge; but it is rare to find a petition
that so thoroughly distorts the decision below and so
brazenly asserts harms it previously disclaimed.
The Ninth Circuit’s interlocutory ruling in this
case is just as narrow as petitioner admitted less than
a year ago. It does no more than prohibit the
imposition of criminal penalties against homeless
individuals who engage in “the simple act of sleeping
outside” when “no alternative shelter is available to
them”—something that already is supposed to be
prohibited under Boise’s current law. Pet. App. 64a,
36a. That result is limited in scope, and reflects the
ought-to-be uncontroversial principle that a person
may not be charged with a crime for engaging in
activity that is simply a “universal and unavoidable
consequence[] of being human.” Id. at 62a (citation
omitted).
The Ninth Circuit’s holding does not conflict with
any decision of this Court, nor that of any court of
appeals or state supreme court. In Robinson v.
California, this Court held that the Eighth
Amendment prohibits the criminalization of an
individual’s status. 370 U.S. 660, 666 (1962). Five
Justices, in two separate writings, subsequently
agreed in Powell v. Texas, 392 U.S. 514 (1968), that
the Eighth Amendment also may impose certain
limits on a state’s ability to criminalize conduct that
is inseparable from an individual’s status and
“impossible” for an individual to avoid. Id. at 551
(White, J., concurring in the result).

3
Far from clashing with the result below, both
decisions support the Ninth Circuit’s conclusion that
the Eighth Amendment prohibits the criminalization
of engaging in “innocent,” “life-sustaining” conduct—
such as sleeping—as applied to homeless individuals
who otherwise “do not have a single place they can
lawfully be.” Pet. App. 63a. At a minimum, however,
petitioner points to no conflict between the decision
below and any majority holding of this Court.
Petitioner’s asserted conflicts with the California
Supreme Court and other courts of appeals,
meanwhile, are so tenuous and unconvincing that
even petitioner presses them only half-heartedly.
Petitioner instead devotes much of its petition to a
barely disguised appeal to policy. That appeal is
particularly remarkable because the Ninth Circuit’s
holding does no more than command what petitioner’s
own current ordinances already ostensibly require.
And petitioner’s dramatically overwrought assertion
that the decision below constitutionalizes a right to
live in parks, on sidewalks, and in encampments, is
squarely disclaimed by the decision itself, which
expressly notes that it does not prevent cities from
“prohibiting sitting, lying, or sleeping outside at
particular times or in particular locations” nor from
“barring the obstruction of public rights of way or the
erection of certain structures.” Pet. App. 63a n.8; see
also id. at 5a. Rather, it explained, an ordinance
violates the Eighth Amendment only to the extent it
“criminaliz[es] the biologically essential need to sleep
when there is no available shelter.” Id. at 4a.
In the end, therefore, petitioner and its amici ask
this Court to depart from its ordinary criteria for
certiorari to grant interlocutory review of the denial
of summary judgment largely based on their

4
speculation of how the court’s reasoning may be
applied in future cases involving different issues or
other cities that are not parties to this case. Review
based on such conjecture is unwarranted—and, at the
very least, highly premature. That is even more so
the case here because review of this decision could
force the Court to engage in fact-intensive, threshold
jurisdictional determinations based on a de novo
review of a voluminous summary judgment record.
For all those reasons, this case is ill-suited for this
Court’s review. The petition should be denied.
STATEMENT OF THE CASE
A. Factual Background
1. The City of Boise currently has three homeless
shelters which offer emergency shelter services to the
approximately 900 homeless people in Ada County.
Pet. App. 36a-38a.
One shelter, run by Interfaith Sanctuary Housing
Services, Inc. (“Sanctuary”), has 96 beds reserved for
individual men and women, additional beds reserved
for families, and some space on floor mats. Id. at 37a.
It is the only shelter that allows couples and their
children to stay together. Id. at 132a. Because of its
limited capacity, Sanctuary frequently has to turn
away homeless people seeking shelter. In 2010,
Sanctuary reached full capacity in the men’s area “at
least half of every month,” and the women’s area
reached capacity “almost every night of the week.” Id.
In 2014, the shelter reported that it was full for men,
women, or both on 38% of nights. Id.
The other two shelters in Boise are both operated
by the Boise Rescue Mission (“BRM”), a Christian
nonprofit organization. Id. at 38a. One of those
shelters, the River of Life Rescue Mission (“River of

5
Life”), is open exclusively to men; the other, the City
Light Home for Women and Children (“City Light”),
is open only to women and children. Id. The BRM
facilities have strict check-in policies, whereby those
needing shelter must check in between 4:00 and 5:30
pm or may be denied entry. Id.
The BRM shelters run two programs. The first is
the “Discipleship Program,” which is an “intensive,
Christ based residential recovery program” of which
“[r]eligious study is the very essence.” Id. at 39a. The
other program is the Emergency Services Program,
which permits stays at BRM shelters of up to 17
consecutive days for men and 30 days for women and
children, after which they either must join the
Discipleship Program or cannot return for at least 30
days.1 Id. In addition, any guest in the Emergency
Services Program that does not stay at BRM on each
night during the 17 or 30-day period—for instance,
because the guest has identified other shelter—is
prohibited from returning to the shelter for 30 days.
Pet. App. 39a. BRM’s stay length rules are relaxed
during the winter. Id.
1

The record indicates that even in the Emergency Services
Program, there may be substantial pressure to engage in
religious activities.
For instance, BRM acknowledged in
unrelated litigation that its facility maintains a “pervasively
religious atmosphere” and a “comprehensively religious
environment.” BRM Br. 35, Intermountain Fair Hous. Council
v. Boise Rescue Mission Ministries, 637 F.3d 988 (9th Cir. 2011)
(No. 10-35519), ECF No. 23-1. Shelter guests are also told
during intake that the Shelter “would like to share the Good
News [of Jesus]” with them. Pet. App. 38a. The Ninth Circuit
found that a genuine factual dispute existed with respect to
whether the Emergency Services Program has a religious
component, id. at 47a, and petitioner does not challenge that
finding in this Court.

6
2. Boise has two ordinances which criminally
punish sleeping outside. The language of both
ordinances has changed over the course of this
litigation. The first is Boise City Code § 5-2-3(A)
(formerly § 6-01-05 (2009)) (the “Disorderly Conduct
Ordinance”), which at the outset of this case banned
“[o]ccupying, lodging, or sleeping in any building,
structure, or public place, whether public or private
. . . without the permission of the owner or person
entitled to possession or in control thereof.” The
second is Boise City Code § 7-3A-2(A) (formerly § 910-02 (2009)) (the “Camping Ordinance”), which
similarly made it a misdemeanor to use “any of the
streets, sidewalks, parks or public places as a
camping place at any time.”
Soon after this litigation began, petitioner
amended the Camping Ordinance to define “camping”
as “the use of public property as a temporary or
permanent place of dwelling, lodging, or residence.”
Boise City Code § 9-10-02 (2009). The Boise Police
Department then promulgated a new “Special Order,”
effective as of January 1, 2010, that purported to
prohibit enforcement of either the Camping
Ordinance or the Disorderly Conduct Ordinance
against any homeless person on any night when no
shelter had “available overnight space.” Pet. App.
41a. In 2014, the City expressly codified the Special
Order’s mandate that “[l]aw enforcement officers
shall not enforce [the ordinances] when the individual
is on public property and there is no available
overnight shelter.” Boise City Code § 5-2-3(B)(1)
(formerly § 6-01-05(D) (2014)); id. § 7-3A-2(B)
(formerly § 9-10-02 (2014)). Boise law today thus, on
its face, forbids enforcement of either the Camping or
Disorderly Conduct Ordinance against homeless

7
individuals in circumstances when there is no
available shelter.
City
police
implement
this
enforcement
prohibition through a two-step procedure known as
the “Shelter Protocol.” Pet. App. 41a. Under this
protocol, if any shelter in Boise reaches capacity on a
given night, the shelter is asked to notify the police at
roughly 11:00 pm. Id. If all shelters are full on the
same night, police are to refrain from enforcing either
ordinance. See id. Since the Shelter Protocol was
adopted, Sanctuary has reported that it was full on
almost 40% of nights. Id. Respondents also pointed
to evidence below that BRM likewise sometimes “runs
out of beds.” ER866 ¶ 7; see also SER789. However,
pursuant to an asserted policy “never [to] turn down
anyone for food or shelter due to lack of space,”
ER369; see also ER372, 376, neither BRM shelter has
ever reported that it was full. Pet. App. 41a-42a. As
a result, the police have continuously enforced the
ordinances. The Shelter Protocol does not account for
other reasons why a shelter may be unavailable to an
individual, such as because he has exceeded his 17day stay limit at BRM.2
B. Procedural History
1. This litigation began over ten years ago when
respondents, six current or former homeless
residents of Boise, filed a complaint in the United
States District Court for the District of Idaho, alleging
that it violated the Eighth Amendment for petitioner

2

The Shelter Protocol was not in place at the time that
respondents Robert Martin or Pamela Hawkes were issued the
criminal citations that were later dismissed. Pet. App. 41a, 54a55a.

8
to make it a crime for homeless individuals who
lacked any available shelter space to sleep outside.
Id. at 41a. Respondents sought relief under both 42
U.S.C. § 1983 and the Declaratory Judgment Act, 28
U.S.C. §§ 2201-2202. Id. Each respondent challenged
past criminal charges under the ordinances, and two
sought prospective relief. Id.
The district court initially granted summary
judgment to petitioner on the ground that
respondents’ claims for retrospective relief were
barred by the Rooker-Feldman doctrine and their
claims for prospective relief were mooted by the
Special Order and the Shelter Protocol. See Bell v.
City of Boise, 834 F. Supp. 2d 1103, 1109-10 (D. Idaho
2011). The Ninth Circuit reversed and remanded.
Bell v. City of Boise, 709 F.3d 890, 901 (9th Cir. 2013).
On remand, the district court once again entered
summary judgment in favor of petitioner. This time,
the court held that respondents’ Section 1983 claims
should be dismissed pursuant to this Court’s opinion
in Heck v. Humphrey, 512 U.S. 477 (1994), which
ordinarily bars a plaintiff from recovering damages
under § 1983 if that judgment “would necessarily
imply the invalidity of his conviction or sentence,” id.
at 487. See Pet. App. 43a. The district court
concluded that granting either retrospective or
prospective relief to respondents would necessarily
invalidate their prior criminal convictions, and thus
dismissed the § 1983 claims. Id. at 43a-44a. And
while the district court concluded that Heck did not
bar relief under the Declaratory Judgment Act, it held
that respondents lacked standing to pursue that
relief, because any claim for a declaratory judgment
was mooted by the City’s amendment to the
ordinances. Id. at 44a. Because of that amendment,

9
the district court held, there was no “credible threat”
that respondents would be unlawfully prosecuted
under the ordinances. Id.
2. The Ninth Circuit reversed and remanded
again. The court first rejected petitioner’s argument
that the 2014 amendment mooted respondents’
claims for prospective relief. Although petitioner
maintained that it had never enforced the ordinances
when no alternative shelter was available, the court
of appeals held that “there are sufficient opposing
facts in the record to create a genuine issue of
material fact as to whether [respondents] face a
credible threat of prosecution under one or both
ordinances in the future at a time when they are
unable to stay at any Boise homeless shelter.” Id. at
45a. Specifically, the Ninth Circuit noted that the
City was “wholly reliant on the shelters to self-report
when they are full.” Id. at 46a. Although the court
acknowledged that the BRM facilities “have never
reported that they are full,” the court pointed to
“substantial evidence” in the record indicating that
the BRM facilities “refuse to shelter homeless people
who exhaust the number of days allotted by the
facilities.” Id. at 46a-47a. The court also noted that
the City lacked any protocol for ensuring that the
ordinance is not enforced against a homeless person
excluded from a BRM facility under this policy on a
night when Sanctuary is already full. Id. at 48a-49a.
Furthermore, the court noted, a genuine factual
dispute existed over whether even BRM’s Emergency
Services Program had a religious component. See,
e.g., id. at 47a (noting one respondent’s testimony that
he was required to attend chapel). Accordingly, the
court found “facts in dispute” over whether enforcing
the ordinances against an individual who could stay

10
only at BRM would effectively use “the threat of
prosecution” to “coerce an individual to attend
religion-based programs.” Id. That outcome, under
Ninth Circuit precedent, would violate the
Establishment Clause. Id. at 47a-48a (citing Inouye
v. Kemna, 504 F.3d 705, 712-13 (9th Cir. 2007)).
The court thus held that even if “BRM’s facilities
have never been ‘full,’ and . . . the City has never cited
any person under the ordinances who could not obtain
shelter ‘due to a lack of shelter capacity,’ there
remains a genuine issue of material fact as to whether
homeless individuals in Boise run a credible risk of
being issued a citation on a night” when “as a
practical matter, no shelter is available.” Id. at 48a49a. As a result, the court concluded, respondents’
claims for prospective relief were not moot.
The Ninth Circuit also found that although Heck
barred many of respondents’ requests for
retrospective relief, it did not apply to respondents’
claims based on “two injuries stemming from . . .
dismissed citations” because “the Heck doctrine has
no application” when “there is no ‘conviction or
sentence’ that may be undermined by a grant of relief
to the plaintiffs.” Id. at 55a. The majority also held
that Heck did not apply to respondents’ claims of
prospective relief. Id. at 57a-58a.3
3. Turning to the merits of respondents’ claim,
the Ninth Circuit framed the question as whether
“the Cruel and Unusual Punishments Clause of the
3

Judge Owens agreed with the majority of the court’s
analysis, including “the majority’s Eighth Amendment analysis,”
but would have found that Heck barred respondents’ claims for
prospective relief. Pet. App. 66a. Petitioner has not challenged
the majority’s holding on that issue in its petition to this Court.

11
Eighth Amendment preclude[s] the enforcement of a
statute prohibiting sleeping outside against homeless
individuals with no access to alternative shelter?” Id.
at 58a-59a. The court answered that question in the
affirmative, holding that the government cannot
charge homeless individuals with a crime “for lacking
the means to live out the ‘universal and unavoidable
consequences of being human.’” Id. at 63a.
The Ninth Circuit began by noting that in
Robinson, this Court held that a “statute that ‘ma[de]
the “status” of narcotic addiction a criminal offense’
[was] invalid under the Cruel and Unusual
Punishments Clause.” Id. at 59a. The court then
went on to discuss Powell v. Texas, 392 U.S. 514
(1968), in which the Supreme Court considered the
application of Robinson to an individual’s conviction
for public intoxication. In that case, the Ninth Circuit
noted, a four-Justice plurality voted to affirm the
individual’s conviction, distinguishing Robinson “on
the ground that the Texas statute made criminal not
alcoholism but conduct.” Pet. App. 60a. The Ninth
Circuit found that in providing the decisive fifth vote,
Justice White had cautioned that an individual who
could show it was “impossible” to avoid conduct
resulting from a status protected by Robinson might
be able to assert a defense under the Eighth
Amendment.
The panel finally noted that the
dissenting Justices agreed with that principle.
Consistent with the lessons of those cases, the
Ninth Circuit held that “the Eighth Amendment
prohibits the imposition of criminal penalties for
sitting, sleeping, or lying outside on public property
for homeless individuals who cannot obtain shelter.”
Id. at 62a. The court explained that, whether those
activities “are defined as acts or conditions, they are

12
universal and unavoidable consequences of being
human.” Id. (citation omitted). “[J]ust as the state
may not criminalize . . . being ‘homeless in public
places,’ the state may not criminalize conduct that is
an unavoidable consequence of being homeless—
namely sitting, lying, or sleeping on the streets” when
there is no place else to go. Id. (citation omitted).
The court was careful to emphasize that its
“holding” was “narrow.” Id. The court explained that
its decision “in no way dictate[s] to the City that it
must provide sufficient shelter for the homeless,” id.
(citation omitted), nor does it prohibit “criminaliz[ing]
the act of sleeping outside,” id. at 63a n.8. Instead,
the opinion simply prohibits the “enforcement” of the
ordinances in the limited circumstance where a
homeless person truly has no place else to go. Id. at
58a-59a. It “does not cover individuals who do have
access to adequate temporary shelter, whether
because they have the means to pay for it or because
it is realistically available to them for free, but who
choose not to use it.” Id. at 62a n.8. And “[e]ven
where shelter is unavailable,” a city could prohibit
sleeping or camping “at particular times or in
particular locations,” and could likewise “bar[] . . . the
erection of certain structures.” Id. at 63a n.8. As the
court explained, “[w]hether some other ordinance is
consistent with the Eighth Amendment will depend,
as here, on whether it punishes a person for lacking
the means to live out the ‘universal and unavoidable
consequences of being human.’” Id. (citation omitted).
Accordingly, the Ninth Circuit reversed and
remanded for further proceedings. Petitioner did not
petition for rehearing or rehearing en banc as to the
court’s Eighth Amendment holding. Instead, it
requested rehearing only as to whether Heck barred

13
respondents’ claims for prospective relief and whether
two respondents could maintain claims for damages
with respect to their dismissed citations.
The Ninth Circuit requested supplemental
briefing on the Eighth Amendment issue. Following
that briefing, the Ninth Circuit denied en banc
review.
REASONS FOR DENYING THE PETITION
I. PETITIONER
MISCHARACTERIZES
BELOW

FUNDAMENTALLY
THE
DECISION

1. Petitioner asks this Court to grant review of
the question whether “the enforcement of generally
applicable laws regulating public camping and
sleeping constitute[s] ‘cruel and unusual punishment’
prohibited by the Eighth Amendment of the
Constitution.” Pet. i. That Question Presented
conspicuously omits the central limitation contained
in the opinion below: that enforcement is prohibited
only as applied to a person “when no alternative
shelter is available to them.” Pet. App. 36a. As the
Ninth Circuit’s opinion carefully explains, shelter
may be “available” to a person for a number of
different reasons—they may “have the means to pay
for it” or it may be “realistically available to them for
free,” as in the case of a shelter. Id. at 62a n.8. In
each of these situations, a city may validly enforce
ordinances criminalizing sleeping or camping outside.
It is thus flatly untrue, as petitioner now asserts,
that the decision below results in cities being unable
to “enforce public-camping laws against any
individual unless and until they provide adequate
shelter space to house all individuals.” Pet. 27. To
the contrary, a city is not required to “provide” shelter

14
to anyone. See Pet. App. 62a. (“[W]e in no way dictate
to the City that it must provide sufficient shelter for
the homeless . . . .” (citation omitted)). And it may
continue to enforce its ordinances against homeless
individuals unless “no alternative shelter is available
to them.”
Id. at 36a.
Moreover, even in a
circumstance “where shelter is [totally] unavailable,”
the court’s decision expressly recognizes that cities
may prohibit sleeping outside “at particular times or
in particular locations.” Id. at 63a n.8.4 The only
situation where enforcement of an ordinance is barred
is one that is already prohibited under current Boise
law and in which the City itself has long disclaimed
enforcement—where “there is no option of sleeping
indoors.” Pet. App. 62a.5
2. The petition also mischaracterizes the decision
below in a second and equally fundamental way.
Petitioner asserts that the decision below holds that
“the Constitution exempts from generally applicable
criminal laws any conduct that is purportedly
involuntary.” Pet. 13 (emphasis added); see also id. at
19 (asserting a conflict over the “question whether
involuntary conduct can ever be punished consistent
4

Similarly, it is unclear how petitioner arrives at the
bizarre conclusion that the decision below will prevent it from
enforcing laws against “public defecation and urination.” Pet. 4.
Petitioner does not contend there are no accessible public
restrooms within the City of Boise.
5

Notwithstanding the text of the ordinances, respondents
pointed to substantial evidence below that the City, in fact,
enforces the ordinances even in cases in which an individual
lacks available shelter, as because they have exceeded BRM’s
stay limits, or due to BRM’s policy of barring for 30 days an
individual who finds alternative shelter for even one night. See,
e.g., Pet. App. 47-49a.

15
with the Cruel and Unusual Punishment Clause”
(emphasis added)).
But nothing in the court’s opinion remotely
suggests that all “purportedly involuntary” conduct is
immune from punishment. Rather, “[n]othing in the
opinion reaches beyond criminalizing the biologically
essential need to sleep when there is no available
shelter.” Pet. App. 4a. Sleeping outside in that
specific circumstance, the court stressed, is a
“universal and unavoidable consequence[] of being
human.” Id. at 62a (citation omitted). Any human
being would find it “impossible” to comply with an
anti-sleeping ordinance when they have no access to
shelter. The opinion thus does not extend to—and
says nothing about—other contexts where an
individual might “purport[]” that his actions are
“involuntary,” but the relevant action is not a
“universal and unavoidable consequence of being
human.”
Properly understood, therefore, the decision below
is limited in scope. Indeed, it places no additional
constraint on petitioner beyond that already codified
under its own municipal law.
II. THERE IS NO CONFLICT WARRANTING
THIS COURT’S REVIEW
The decision below recognizes that it would be
cruel and unusual to criminally punish a homeless
person who violates the law simply because he
engages in the biologically compelled activities of
sitting, lying or sleeping outside when he has no place
else to go. That result reflects basic common sense, is
consistent with this Court’s precedent, and creates no
conflict in authority with any court of appeals or state
court of last resort.

16
A. The Decision Below Does Not Conflict
With This Court’s Precedent
1. In Robinson v. California, 370 U.S. 660 (1962),
this Court established that laws that criminalize an
individual’s “status” violate the Eighth Amendment,
and accordingly struck down a law that criminalized
the status of addiction. Six years later, in Powell v.
Texas, 392 U.S. 514 (1968), the Court considered
whether Robinson extended to the criminalization of
public intoxication. In a fractured opinion, a fourmember plurality concluded that Robinson did not
apply to conduct, and thus did not bar a city from
criminalizing the act of being drunk in public. Id. at
531-37; id. at 541-44 (Black, J., concurring).
Justice White provided the decisive fifth vote to
affirm the conviction at issue. In his view, the
plurality erred to the extent it believed that Robinson
was categorically inapplicable to conduct. As Justice
White explained, it makes little sense to read
Robinson to “forbid[] criminal conviction for being sick
with flu or epilepsy but permit[] punishment for
running a fever or having a convulsion.” Id. at 548
(White, J., concurring in the result). As a result, he
concluded that the Eighth Amendment may impose
certain limits on the state’s ability to punish
individuals for conduct that was “impossible” to avoid.
Id. at 551. Justice White concurred in the judgment,
however, because he did not believe that the
defendant’s conduct in the case before him was
“impossible” to avoid. Id. at 552.
The four-member dissent would have reversed the
conviction at issue. But it agreed with Justice White
that criminal penalties could not be imposed on an
individual for conduct that is impossible to avoid.

17
Powell, 392 U.S. at 567-68 (Fortas, J., dissenting). As
petitioner acknowledges (at 17), therefore, the
plurality’s contrary view did not command a majority
of this Court.
2. Petitioner inexplicably asserts that “[t]he
Ninth Circuit’s decision cannot be reconciled with
Robinson or the plurality or concurring opinions in
Powell,” because it involves regulation of “conduct”
not “status.” Pet. 16. But neither Robinson nor
Powell remotely suggest that the Eighth Amendment
is categorically inapplicable to laws that purport to
criminalize “conduct.”
While Robinson recognizes that status crimes
violate the Eight Amendment, nothing in that opinion
limits the scope of the Eight Amendment to such
crimes. Nor did anything in Robinson purport to draw
a bright-line distinction between crimes that penalize
status and those that penalize innocent “conduct”
that is an unavoidable by-product of a person’s status,
such as “sitting, lying, or sleeping” while being
homeless. Pet. App. 62a (citation omitted).
This case underscores why. Pursuant to Robinson,
the Constitution does not permit—and petitioner does
not argue—that a city could make it a crime simply to
be homeless. But a law that criminalizes sleeping
outside the home when an individual has no
alternative shelter available to him is no different—it
merely adds a universal, unavoidable, and entirely
innocent act to a “crime” that is otherwise defined
purely by status.6 Indeed, because a homeless
6

That is in stark contrast to, for example, criminalizing
actions—like drug use or downloading child pornography—that
are neither innocent, nor “universal and unavoidable
consequences of being human.”

18
individual cannot lawfully sleep on someone’s private
property, a law that also criminalizes sleeping on
public property when no alternative shelter is
available is tantamount to making it a crime simply
to sleep while being homeless. As Judge Wilkinson
recently acknowledged, laws that seek “to punish
persons merely for their need to eat or sleep, which
are essential bodily functions,” offend “Robinson’s
command that the state identify conduct in crafting
its laws, rather than punish a person’s mere
existence.” See infra at 24.
Because five Justices in Powell would have held
that an individual cannot be criminally punished for
conduct that is impossible to avoid, that decision
likewise supports the decision below. See, e.g., United
States v. Jacobsen, 466 U.S. 109, 115-17 (1984)
(relying on dissenting and concurring opinions
constituting a majority to derive the rule in Walter v.
United States, 447 U.S. 649 (1980)); Moses H. Cone
Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 1617 (1983) (holding that Will v. Calvert Fire Insurance
Co., 437 U.S. 655 (1978), did not overrule the
“Colorado River test” because Will’s four dissenting
Justices agreed with the concurring opinion that the
test remained in effect).
At an absolute minimum, however, one cannot
reasonably maintain that either Robinson or Powell
is “irreconcilable” with the Ninth Circuit’s decision.
Pet. 12. Accordingly, there is no conflict with this
Court’s precedent warranting the Court’s review.

19
B. The Asserted Circuit Conflict and Conflict
With The California Supreme Court Are
Illusory
Petitioner next asserts a conflict between the
decision below and decisions of the California
Supreme Court and the Eleventh, First, and Seventh
Circuits. Those supposed conflicts rely on twisting
both the scope of the Ninth Circuit’s holding and the
decisions with which it purportedly conflicts.
Properly understood, there is nothing even
approaching a conflict warranting this Court’s review.
1. Petitioner first asserts a conflict between the
decision below and the California Supreme Court’s
decision in Tobe v. City of Santa Ana, 892 P.2d 1145
(Cal. 1995).
But Tobe involved only a “facial
challenge” to ordinances barring camping and storage
on public property. The court in Tobe made clear that
it was “consider[ing] only the text of the measure
itself, not its application to the particular
circumstances of an individual,” id. at 1152, and,
accordingly deemed “irrelevant” “any allegations
identifying the [challengers] as . . . involuntarily
homeless” or showing that the “violation of the
ordinance was involuntary and/or occurred at a time
when shelter beds were unavailable,” id. at 1157.
Instead, the only question addressed by the court was
whether “there were no circumstances in which the
ordinance could be constitutionally applied,” id.
(emphasis added), and thus a “total and fatal conflict”
between the ordinances and the Eighth Amendment,
id. at 1152 (citation omitted). In that posture, the
court held that the ordinances were not invalid on
their face, because there were circumstances in which
they could be lawfully enforced.

20
That unremarkable holding fully accords with the
decision below. Unlike in Tobe, the court here
considered an “as applied” challenge to the
ordinances, and held that their enforcement was
impermissible when “homeless plaintiffs do not have
a single place where they can lawfully be.” Pet. App.
63a (citation omitted). Nothing in the Ninth Circuit’s
decision purported to find the ordinances
unconstitutional on their face. Indeed, not only did
the court acknowledge that there are many
circumstances where Boise’s ordinances may be
constitutionally applied, id., the only circumstance in
which the Ninth Circuit held they may not is already
prohibited by the facial terms of the ordinances
themselves. The dispute between the parties here
therefore has nothing to do with the facial validity of
the ordinances at all, only the manner in which they
are enforced—an issue Tobe expressly declined to
address.7
There is thus no inconsistency whatsoever
between Tobe and the decision below.

7

Petitioner also asserts (at 20) a conflict with the decision
of a California intermediate court in Allen v. City of Sacramento,
183 Cal. Rptr. 3d 654 (Ct. App. 2015). This Court generally does
not review purported conflicts with the state intermediate
courts. See Sup. Ct. R. 10 (review limited to conflicts with a
“state court of last resort”). And, in any event, the Allen
plaintiffs did “not allege why [they] had no shelter” and “elected
not to file a second amended complaint” explaining why shelter
was not practically available to them. 183 Cal. Rptr. 3d at 670.
Accordingly, unlike here, it could not be discerned from the
complaint in Allen whether plaintiffs had “access to adequate
temporary shelter [either] because they have the means to pay
for it or because it is realistically available to them for free.” Pet.
App. 62a n.8.

21
2. There is likewise no conflict between the
decision below and the Eleventh Circuit’s opinion in
Joel v. City of Orlando, 232 F.3d 1353 (11th Cir.
2000), cert. denied, 532 U.S. 978 (2001).
As the Ninth Circuit itself explained (at Pet. App.
63a n.9), in Joel there was “unrefuted evidence” of
available space at shelters at the time when plaintiffs
were penalized, and evidence that “no individual had
been turned away” from those shelters. Id. at 1362.
“Consequently,” the Eleventh Circuit stressed, the
case was “distinguishable” from those where an
ordinance “criminalizes involuntary behavior.” Id.
Joel thus stands for the modest proposition that a city
“is constitutionally allowed to regulate where
‘camping’ occurs, [when] the availability of shelter
space means that [homeless individuals have] an
opportunity to comply with the ordinance.” Id.
(emphasis added). That holding in no way conflicts
with the decision below, which expressly does “not
cover individuals who”—as in Joel—“have access to
adequate temporary shelter.” Pet. App. 62a n.8.
Petitioner insists that Joel in fact establishes a
broad rule that the Eighth Amendment does not apply
to any law which “target[s] conduct.” Pet. 20. But if
the Eleventh Circuit intended such a sweeping rule,
it would have had no need to “distinguish[]” Pottinger
v. City of Miami, 810 F. Supp. 1551 (S.D. Fla. 1992),
and Johnson v. City of Dallas, 860 F. Supp. 344, 350
(N.D. Tex. 1994), rev’d and vacated on other grounds,
61 F.3d 442 (5th Cir. 1995), on the grounds that “the
lack of sufficient homeless shelter space in those cases
. . . made sleeping in public involuntary conduct.” 232
F.3d at 1362. Nor would the court have needed to
discuss—and rely upon—“unrefuted evidence” of the
availability of shelter as a basis for its decision. Id.

22
In any event, the fact that Joel expressly
distinguished the circumstance addressed in the
decision below alone precludes the possibility of a
circuit conflict.
3. Because petitioner cannot point to a genuine
circuit split concerning the actual holding at issue, it
attempts to cobble together a conflict by suggesting
that the decision below somehow clashes with
decisions of the First and Seventh Circuit, holding
that the Eighth Amendment does not preclude
incarceration for drug use or child pornography. That
effort fails.
These asserted circuit splits are entirely premised
on mischaracterizing the Ninth Circuit’s decision as
holding that all “purportedly involuntary conduct” is
“categorically exempt[]” from generally applicable
criminal laws. Pet. 12. But the Ninth Circuit held no
such thing. As discussed above, nothing in the
opinion extends to the situation where an individual
claims he cannot comply with a law because he has an
internal compulsion to violate it. Instead, the Ninth
Circuit was careful to limit its holding to those who
are penalized for activity that is simply the
“‘universal and unavoidable consequence[] of being
human’”—such as sleeping outside when one has “no
option of sleeping indoors.” Pet App. 62a-63a (citation
omitted).
Taking drugs and downloading child pornography
are not “universal and unavoidable consequences of
being human,” and it borders on the absurd to suggest
that a subsequent panel in the Ninth Circuit will feel
itself bound by the decision below to invalidate any
such convictions. Indeed, in the time since the
decision below, numerous opinions in the Ninth
Circuit have affirmed drug and child pornography

23
convictions without even a hint that those convictions
may implicate the Eighth Amendment.
The fact that petitioner resorts to drumming up
these purported “conflicts” with the First and Seventh
Circuits only underscores the absence of any genuine
division of authority amongst the circuits.
4. Finally, petitioner asserts (at 23-25) a conflict
with the Fourth Circuit’s recent en banc decision in
Manning v. Caldwell, 930 F.3d 264 (4th Cir. 2019). In
Manning, the Fourth Circuit addressed a law
significantly different to one here, which criminalized
the possession of alcohol by individuals who had been
placed under a civil interdiction order for drunk
driving or habitual drunkenness. In the majority’s
view, the plaintiffs stated an Eighth Amendment
claim by alleging that that statutory scheme as
applied to them criminalized conduct that was “an
involuntary manifestation of their illness, and that
[wa]s otherwise legal for the general population.” Id.
at 283.
Petitioner asserts that Manning is “narrower”
than the decision below because it only prohibits laws
which “target a specific subset of the population” and
punishes those people for their “otherwise legal
behavior” Pet. 24-25. By contrast, petitioner asserts,
“the ordinances here are generally applicable
criminal laws” and therefore outside the scope of the
Eighth Amendment. Id. at 25.
Petitioner’s argument is a non-sequitur. Nothing
about Manning purported to hold that laws of general
applicability are categorically immune from Eighth
Amendment scrutiny. Such a holding would be
irreconcilable with Robinson itself, which invalidated
just such a law.
Indeed, despite their deep

24
disagreement over the case before them, both the
majority and dissent in Manning appeared to agree
with the result in this case.
The majority noted that, “[i]f the statute
challenged in Robinson had instead allowed
California to . . . arrest [prescription drug] addicts for
filling [their] prescriptions, the statute effectively
would also have criminalized ‘being addicted to
narcotics’ even if it nominally punished only filling
prescriptions.” Manning, 930 F.3d at 283. “Such a
statute,” the majority explained, “would surely be just
as unconstitutional as the statute in Robinson, and
for precisely the same reasons.” Id. That reasoning
fully accords with the Ninth Circuit’s recognition that
punishing someone for sleeping outside, which is the
“universal and unavoidable” consequence of being
homeless, is no more permissible than punishing
homelessness itself. Clearer still, the majority cited
the decision below, and said it “arrived at the same
conclusion we reach here.” Id. at 282 n.17.
The principal dissent, meanwhile, acknowledged
that in “the rare case where the Eighth Amendment
[has been] found to invalidate a criminal law, the law
in question sought to punish persons merely for their
need to eat or sleep, which are essential bodily
functions.” Id. at 290 (Wilkinson, J., dissenting); see
id. (“For plaintiffs, resisting the need to eat, sleep or
engage in other life-sustaining activities is
impossible.” (quoting Pottinger, 810 F. Supp. at
1565)). Far from criticizing such results, the dissent
described such outcomes as “simply a variation of
Robinson’s command that the state identify conduct
in crafting its laws, rather than punish a person’s
mere existence.” Id.

25
Petitioner thus utterly fails to explain how the
governing rules in the Ninth and Fourth Circuits
would lead to opposing results in any case. Both the
majority and dissent in Manning suggested that the
result in this case accords with Robinson. Manning
thus creates no division in authority warranting this
Court’s review.
III. THE
PETITION
DRAMATICALLY
EXAGGERATES
THE
SCOPE
AND
CONSEQUENCES OF THE DECISION
BELOW
Because there is no relevant conflict in authority,
Petitioner and its amici place heavy emphasis on
policy. Their pitch to this Court is, in effect, that the
policy ramifications of this case are so significant that
the Court should depart from its traditional criteria
for certiorari and grant review absent any conflict.
But petitioner’s policy concerns are dramatically
overstated. And, petitioner conspicuously offers no
defense of the only policy actually prohibited by the
Ninth Circuit’s decision: that of citing or imprisoning
individuals who sleep outside when they have no
access to shelter. Instead, petitioner rests exclusively
on highly speculative assertions about how the
decision below will affect other laws in other contexts
and in other cities. This Court’s intervention on the
basis of that conjecture is unwarranted.
1. As discussed above, the decision below
prohibits a city from enforcing its ordinances in one—
and only one—situation: where it punishes a
homeless person for sleeping, lying or sitting outside
when he has no place else to go. That holding imposes
no additional restriction on petitioner beyond that
provided by the City’s own law, which already

26
purports to prohibit enforcement of the ordinances
when “there is no available overnight shelter.” Boise
City Code §§ 5-2-3(B)(1), 7-3A-2(B).
Indeed,
petitioner itself attested before the Ninth Circuit that
the decision below “raises little actual conflict” with
the City’s ordinance and enforcement. Appellee’s CA9
Supp. En Banc Br. 2. Furthermore, throughout this
litigation, petitioner has maintained that it has never
enforced the ordinances against individuals who have
no access to shelter, and has no intent to ever do so.
That is for good reason. Despite their sky-isfalling protestations, petitioner and its amici fail to
provide a single practical example of where a
municipality would benefit from the ability to cite or
imprison a homeless person who lacks any alternative
but to sleep outside. Sleeping outside is a biological
necessity for those who cannot obtain shelter. And a
city that criminalizes both sleeping on private
property and public property when no alternative
shelter is available leaves a homeless individual who
cannot obtain shelter with no capacity to comply with
the law. As the author of the panel opinion explained,
therefore, taking such individuals to jail “is both
unconstitutional . . . and, in all likelihood, pointless.”
Pet. 5a.
There is simply no penological goal accomplished
by arresting and imprisoning, at public expense, an
individual for entirely innocent conduct that is a
“universal and unavoidable consequence[] of being
human”—when there is no shelter available to that
individual. Pet. App. 62a (citation omitted). To the
contrary, it has been widely recognized that, instead
of reducing the factors that contribute to
homelessness, imprisonment in such circumstances
only exacerbates the very policy concerns on which

27
petitioner advances, by making it more difficult for
indigent individuals to break out from homelessness,
while imposing further burdens on scarce public
resources. See Letter from Lisa Foster (Director,
Office for Access to Justice, U.S. Dep’t of Justice) to
Seattle City Council Members at 3 (Oct. 13, 2016),
https://assets.documentcloud.org/documents/3141894/D
OJ-ATJ-Letterto-Seattle-City-Council-10-13-2016.pdf
(explaining that “criminalization creates a costly
revolving
door
that
circulates
individuals
experiencing homelessness from the street to the
criminal justice system and back” and “is both
unconstitutional and misguided public policy, leading
to worse outcomes for people who are homeless and
for their communities” (citations omitted)); Pottinger
v. City of Miami (“Pottinger II”), 359 F. Supp. 3d 1177,
1180-81 (S.D. Fla. 2019) (noting City of Miami’s view
that “arresting the homeless is never a solution
because, apart from the constitutional impediments,
it is expensive, not rehabilitating, [and] inhumane”).8
Petitioner does not seriously dispute any of this.
Indeed, the clearest evidence that the City does not,
in fact, believe it is an effective or advisable policy to
punish homeless people who have no alternative
shelter is its own amendment barring enforcement in
precisely that situation.

8

By contrast, abandoning efforts to criminalize sleeping
outside in favor of more effective (and constitutionally
permissible) tools promotes superior outcomes. Following
Pottinger II, the city of Miami, Florida abandoned the
criminalization of sleeping outside when no shelter was
available, in favor of a shift to better solutions. Two decades
later, the county’s homeless population has fallen by 90%.
Pottinger II, 359 F.3d at 1180-81.

28
Finally, the limited practical consequence of the
decision below is further illustrated by the fact that
the City has only issued a few dozen citations under
the ordinances in the last 24 months. All of those
citations, according to petitioner, were in compliance
with its policy prohibiting enforcement against
individuals who have no access to shelter. Hence, if
petitioner is being truthful, none of even those few
dozen citations are at all implicated by the decision
below. Not even petitioner points to a single citation
it has issued under the ordinances which it would be
prohibited from issuing based on the decision below.
2. Unable to contest the only actual restriction
imposed by the decision below, petitioner and its
amici
resort
to
exaggerated,
slippery-slope
speculation regarding the effect that the decision will
have on other laws and enforcement contexts. None
are persuasive.
First, petitioner asserts that the decision below
will prohibit cities from ever “enforc[ing] publiccamping laws against any individual” and will “create
a de facto constitutional right to live on public
sidewalks and in public parks.” Pet. 27. That is
simply untrue. The opinion makes clear that the City
remains free to enforce the ordinance against any
“individual[] who do[es] have access to adequate
temporary shelter, whether because they have the
means to pay for it or because it is realistically
available to them for free.” Pet. App. 62a n.8. And
“[e]ven where shelter is unavailable,” the City can
impose anti-camping provisions so long as they are
limited to “particular times or in particular locations.”
Id. at 63a n.8. The decision below thus does not
deprive the City of a single tool that it presently has
to combat homelessness under existing law.

29
Second, petitioner extraordinarily spends a full
five pages of its petition describing the hazards of
“public encampments.”
But the opinion below
expressly states that it does not prohibit enforcement
of criminal laws restricting “erection of certain
structures” nor does it bar ordinances restricting
sleeping outside “in particular locations.” Id. Nor
does the opinion have any effect on a city’s ability to
use civil enforcement measures, including health and
safety laws, to regulate the sites of public
encampments. The decision below thus leaves cities
with a powerful toolbox to address encampments—
aside from imprisoning each and every person therein
on a night when they have no place else to go.
Finally, petitioner and its amici speculate that the
opinion’s purported imprecision will leave cities
“unable or unwilling” to take measures addressing
homelessness “out of fear of substantial liability.”
Pet. 34. But, again, there is no reason to believe that
will be so. A police officer who applies the decision
below in good faith is likely to be protected by
qualified immunity from her judgment. See Malley v.
Briggs, 475 U.S. 335, 341 (1986) (qualified immunity
“provides ample protection to all but the plainly
incompetent or those who knowingly violate the law”).
And a municipality itself is unlikely to face liability
unless it adopts a “policy or custom” of citing or
imprisoning homeless individuals when there is no
place else to go. City of Canton v. Harris, 489 U.S.
378, 385 (1989). Hence, there should be no concern of
liability—let alone “substantial liability”—for any
municipality that makes systematic, good-faith
efforts to ascertain the availability of shelter and does

30
not knowingly cite or imprison individuals who have
no alternative but to sleep outside.9
Instead, the primary context in which the decision
below will apply will be as a constitutional limitation
in criminal enforcement actions. The availability of a
defense that might prevent a homeless indigent
person from being fined or imprisoned for conduct
that is impossible to avoid should in no way “paralyze”
any city in its efforts to curb the harms associated
with homelessness.
In any event, to the extent that petitioner is
concerned it does not know how the Ninth Circuit’s
ruling applies to each and every new factual scenario,
that is not an objection to the decision below, but to
how all rules of law develop within our system. Some
degree of uncertainty attends every new legal rule,
but this Court’s ordinary practice is to await the
contours of that rule to be elucidated in subsequent
cases—not to prematurely intervene because of
purported uncertainty about what the results might
be in circumstances not presented by the cases before
it. See Yee v. City of Escondido, 503 U.S. 519, 538
(1992) (“Prudence” dictates “awaiting . . . the benefit
of . . . lower court opinions squarely addressing” an
issue before this Court intervenes.).
And it is disingenuous for petitioner to suggest
that it will be “paralyzed” from acting in the interim.
Pet. 33-34. Governmental entities routinely act
without perfect clarity about how a legal rule might
9

The “shelter protocol” here, by contrast, is an example of
a plainly inadequate mechanism for ensuring compliance, given
that it results in continuous enforcement of the ordinances even
in circumstances where shelter may be unavailable for a
particular individual, such as because of stay limits.

31
be applied in novel situations. Police are not, for
example, “paralyzed” from engaging in all searches
and seizures because the text of the Fourth
Amendment is not written like a detailed civil law
code. The City’s purported anxiety about how the
decision below might be applied in other situations is
thus overblown and, at most, a reason for this Court
to wait for those situations to actually materialize
before intervening.
IV. THIS CASE IS AN EXCEPTIONALLY POOR
CANDIDATE FOR THIS COURT’S REVIEW
As shown above, there is no conflict between the
decision below and this Court’s cases or those of other
circuit courts. And the Ninth Circuit’s narrow
holding does not remotely produce the parade of
horribles on which petitioner relies. Those are more
than sufficient grounds to deny the petition. Review
should also be denied, however, because this case
represents an especially bad vehicle for the court’s
review.
First, petitioner is not well placed to bring the
challenge it presently brings. The decision below
holds only that the Eighth Amendment prevents the
criminalization of sleeping outside where there is no
available shelter. But, as discussed above, Boise
amended its law in 2014 to forbid the enforcement of
its anti-camping and disorderly conduct ordinances in
that scenario. See Boise City Code §§ 5-2-3(B)(1), 73A-2(B) (“Law enforcement officers shall not enforce
[the ordinances] when the individual is on public
property and there is no available overnight
shelter.”). And the City has repeatedly disclaimed
any intent to enforce the ordinance against a person
who has no alternative but to sleep outside.

32
To be sure, respondents presented substantial
evidence below that the City continues to criminalize
sleeping outside as applied to those for whom no
shelter is available. But the fact that Boise itself
purports to follow the letter of the decision below
makes this a poor candidate for review.
Second, the parties contested respondents’
standing to bring their claims for prospective relief
before the court of appeals. Although respondents
prevailed (and rightly so), granting certiorari could
embroil this Court in a highly fact-intensive,
preliminary jurisdictional inquiry before reaching the
merits. The presence of a fact-dependent threshold
question, which may in fact prevent the Court from
addressing the merits of the question presented,
counsels against the Court’s review. See United
States v. Johnston, 268 U.S. 220, 227 (1925) (“We do
not grant a certiorari to review evidence and discuss
specific facts.”).
Furthermore, potentially enmeshed in that
standing inquiry is a further constitutional
question—whether petitioner may compel an
individual to accept shelter in a self-described
“pervasively religious” shelter on pain of criminal
sanction. See BRM Br. 35, Intermountain Fair Hous.
Council v. Boise Rescue Mission Ministries, 637 F.3d
988 (9th Cir. 2011) (No. 10-35519), ECF No. 23-1. The
Ninth Circuit noted, consistent with its precedent,
that “[a] city cannot, via the threat of prosecution,
coerce an individual to attend religion-based
treatment
programs
consistently
with
the
Establishment Clause of the First Amendment.” Pet.
App. 47a-48a. That was an important premise
supporting the Ninth Circuit’s conclusion that there
is federal jurisdiction over respondents’ claims for

33
prospective relief. To assure itself of jurisdiction over
those claims, therefore, this Court might well have to
address this substantial question of First Amendment
law. That strongly counsels in favor of awaiting a
vehicle which does not present such a threshold
complication.
Third, the interlocutory posture of this case
counsels against review. The petition argues (at 3233) that “the rule imposed by the Ninth Circuit . . . is
ill-defined” and “rais[es] more questions than it
answers.” Pet. 33. Respondents disagree. But even
crediting petitioner’s view, it would merely
underscore that this Court’s review is premature
absent further development and application of the
decision below. It is hardly uncommon for a court’s
legal decision to leave certain questions of application
to future cases; but that makes the decision less
appropriate for certiorari, not more.
At minimum, the Court should await a final
judgment reflecting a fully developed factual record,
rather than issue a detailed decision about whether
the court below was correct on the basis of contested
facts. Moreover, the court’s review of any standing
questions will be particularly complicated at this
interlocutory stage of the case, because the Court
would be forced to review the voluminous summary
judgment record de novo rather than after clear
factual findings at trial.
And petitioner’s extensive reliance on the impact
of the decision below on other laws and enforcement
contexts further counsels in favor of denying review
at this early juncture. Whatever else is true, the dire
consequences predicted by petitioner and its amici are
necessarily speculative. Awaiting final judgment—or

34
a later vehicle—will at least afford time to better
consider the actual impact of the decision below.
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
HOWARD A. BELODOFF
IDAHO LEGAL AID
SERVICES, INC.
1447 So. Tyrell Lane
Boise, ID 83706
MARIA FOSCARINIS
ERIC S. TARS
TRISTIA BAUMAN
BRANDY RYAN
NATIONAL LAW CENTER
ON HOMELESSNESS &
POVERTY
2000 M Street, NW
Suite 210
Washington, DC 20036

MICHAEL E. BERN
Counsel of Record
SAMIR DEGER-SEN
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
michael.bern@lw.com

Counsel for Respondents
October 25, 2019

